No. 20-107

 

 

IN THE

Supreme Court of the Anited States

CEDAR POINT NURSERY AND FOWLER PACKING Co.,
Petitioners,
v.

VICTORIA HASSID, IN HER OFFICIAL CAPACITY AS CHAIR OF
THE CALIFORNIA AGRICULTURAL LABOR RELATIONS BOARD,
ETAL.,

Respondents.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
12,951 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 5, 2021.

 

Wilson-Epes Printing Co., Inc.
